AUDIT OF THE OFFICE OF COMMUNITY ORIENTED 

            POLICING SERVICES 

          GRANT AWARDED TO THE 

      CITY OF WILMINGTON, DELAWARE 





         U.S. Department of Justice 

       Office of the Inspector General 

                Audit Division 



         Audit Report GR-70-12-005 

                 May 2012

       OFFICE OF COMMUNITY ORIENTED POLICING SERVICES 

     GRANT AWARDED TO THE CITY OF WILMINGTON, DELAWARE 


                               EXECUTIVE SUMMARY 


       The Department of Justice Office of the Inspector General, Audit
Division, has completed an audit of the Office of Community Oriented
Policing Services’ (COPS) Interoperable Communications Technology Grant,
number 2004-IN-WX-0007, awarded to the City of Wilmington, Delaware
(Wilmington), in the amount of $2,243,239.1 The purpose of the COPS
Interoperable Communications Technology Program was to increase
interoperability among the law enforcement, fire services, and emergency
medical service communities.

      The objective of our audit was to determine whether reimbursements
claimed for costs under the grant were allowable, supported, and in
accordance with applicable laws, regulations, guidelines, and the terms and
conditions of the grant. We also assessed Wilmington’s program
performance in meeting the grant’s objectives and overall accomplishments.

       Wilmington was awarded $2,243,239 in federal assistance and was
required to provide a $747,746 local cash match, for a total budget of
$2,990,985. The overall objective of the Wilmington program was to resolve
interoperability problems and support multi-disciplinary and multi-
jurisdictional public safety communications. Specifically, Wilmington agreed
to: (1) replace its antiquated analog radio system; (2) integrate this new
system with the State of Delaware’s digital radio system; (3) obtain
equipment and services to upgrade existing City of Wilmington 911 dispatch
consoles and integrate them into Delaware's digital radio system; and
(4) fund travel costs for at least four representatives to attend a required
technical assistance/kick-off conference.

      We examined Wilmington’s accounting records, financial and progress
reports, and operating policies and procedures. As a result of this audit, we
questioned the entire project costs totaling approximately $3 million due to
the deficiencies discussed below:

       	 Wilmington could not support its compliance with federal
          procurement regulations or its receipt of grant-funded equipment.



       1
         The use of Wilmington throughout this report refers to the Wilmington Department
of Finance, Communications Division, and the Police Department which were responsible for
various grant administration procedures.
                                           - i-
        As a result, the total grant expenditures of $2,990,985 were
        unsupported.

     	 Wilmington did not record the grant-funded equipment in a
        property management system.

     	 Wilmington changed the scope of its grant funded project without
        prior written approval from COPS. As a result, the total grant
        expenditures of $2,990,985 were unallowable.

     	 Wilmington did not have approved budget management policies and
        procedures.

     	 Wilmington did not prepare accurate and timely financial and
        progress reports.

     	 Wilmington failed to address prior-year Single Audit Report
        recommendations which contributed to the issues we identified in
        Wilmington’s grant administration.

     These items are discussed in detail in the Findings and
Recommendations section of the report. Our audit objectives, scope, and
methodology are discussed in Appendix I.

       We discussed the results of our audit with Wilmington officials and
have included their comments in the report, as applicable. In addition, we
requested a response to our draft report from Wilmington and COPS, and
their responses are appended to this report as Appendix III and IV,
respectively. Our analysis of both responses, as well as a summary of
actions necessary to close the recommendations can be found in Appendix V
of this report.




                                   - ii -
                             TABLE OF CONTENTS


INTRODUCTION ....................................................................... 1 


Background ................................................................................ 1

Our Audit Approach ..................................................................... 1


FINDINGS AND RECOMMENDATIONS ....................................... 4 


Project Background ..................................................................... 4

Grant Expenditures ..................................................................... 5 

Accountable Property................................................................... 7 

Budget Management and Control .................................................. 8 

Reporting................................................................................... 9 

Drawdowns .............................................................................. 12

Internal Control Environment ...................................................... 12

Matching Costs ........................................................................ 14 

Program Performance and Accomplishments ................................. 15 

Conclusions.............................................................................. 15 

Recommendations..................................................................... 16 


APPENDIX I - OBJECTIVES, SCOPE, AND METHODOLOGY........ 17


APPENDIX II - SCHEDULE OF DOLLAR-RELATED FINDINGS...…18

APPENDIX III - CITY OF WILMINGTON'S RESPONSE TO THE 

    DRAFT AUDIT REPORT ................................................... 19


APPENDIX IV - OFFICE OF COMMUNITY ORIENTED POLICING 

    SERVICES RESPONSE TO THE DRAFT AUDIT REPORT...... 21 


APPENDIX V - OFFICE OF THE INSPECTOR GENERAL
    ANALYSIS AND SUMMARY OF ACTIONS NECESSARY
    TO CLOSE THE REPORT .................................................. 25

                                   INTRODUCTION

      The Department of Justice Office of the Inspector General, Audit
Division, has completed an audit of the Interoperable Communications
Technology Grant, number 2004-IN-WX-0007, awarded by the Office of
Community Oriented Policing Services (COPS) to the City of Wilmington,
Delaware (Wilmington) in the amount of $2,243,239.2 The purpose of the
COPS Interoperable Communications Technology Program was to
increase interoperability among the law enforcement, fire services, and
emergency medical service communities.

      The objective of this audit was to determine whether reimbursements
claimed for costs under the grant were allowable, supported, and in
accordance with applicable laws, regulations, guidelines, and the terms and
conditions of the grant. We also assessed Wilmington’s program
performance in meeting grant objectives and overall accomplishments. As
shown in the table below, Wilmington was awarded a total of $2,243,239 to
implement the program.

              INTEROPERABLE COMMUNICATIONS TECHNOLOGY

                    GRANT TO WILMINGTON, DELAWARE 

                             AWARD     AWARD
            GRANT AWARD                        AWARD AMOUNT
                           START DATE END DATE
           2004-IN-WX-0007         9/01/04        8/31/08          $2,243,239
   Source: Office of Community Oriented Policing Services (COPS)

Background

      In fiscal year (FY) 2004, COPS was appropriated $85 million to
administer the Interoperable Communications Technology Program to
address the interoperability needs of both urban and rural jurisdictions by
funding system and technology upgrades to make existing systems
compatible. Wilmington was 1 of 66 jurisdictions invited to submit an
application that included a clear and demonstrated plan for accomplishing
improved interoperability between first responders of local, tribal, regional,
and state public safety agencies or organizations. Wilmington and 21 other
applicants were awarded FY 2004 Interoperable Communications Technology
Program grants.

      Wilmington was awarded $2,243,239 in federal assistance, which
required a $747,746 local cash match, to: (1) replace its antiquated analog
       2
         The use of Wilmington throughout this report refers to the Wilmington Department
of Finance, Communications Division, Audit Department, and the Police Department which
were responsible for various grant administration procedures.


                                           -1-

radio system; (2) integrate this new system with the State of Delaware’s
digital radio system; (3) obtain equipment and services to upgrade existing
City of Wilmington 911 dispatch consoles and integrate them into Delaware's
digital radio system; and (4) fund travel costs for at least four
representatives to attend a required technical assistance/kick-off conference.

Our Audit Approach

      We tested compliance with what we consider to be the most important
conditions of the grant. Unless otherwise stated in our report, the criteria
we audited against are contained in the Code of Federal Regulations:
28 C.F.R. § 66, Uniform Administrative Requirements for Grants and the
award documents.

      In conducting our audit, we performed testing of Wilmington’s:

      	 Grant expenditures to determine whether costs charged to the
         grant were allowable and supported.

      	 Accountable property to determine whether Wilmington had
         effective procedures for managing and safeguarding assets acquired
         with grant funding.

      	 Budget management and control to determine the overall
         acceptability of costs by identifying budget category and project
         scope deviations between the approved budget and the actual costs
         incurred.

      	 Reporting to determine if the required periodic Financial Status
         Reports and Progress Reports were submitted on time and
         accurately reflected grant activity.

      	 Drawdowns (requests for grant funding) to determine if
         Wilmington adequately supported its requests for funding and
         managed its grant receipts in accordance with federal requirements.

      	 Internal control environment to determine whether the financial
         accounting system and related internal controls were adequate to
         safeguard grant funds and ensure compliance with the terms and
         conditions of the grant. We also reviewed Wilmington’s fiscal year
         2004 to 2009 Single Audit Reports.




                                     -2-

       Matching costs to determine if Wilmington provided matching
        funds that supported the project and were in addition to funds that
        otherwise would have been available for the project.

    	 Program performance and accomplishments to determine
       whether Wilmington achieved the grant’s objectives and assess
       performance and grant accomplishments.

     These items are discussed in detail in the Findings and
Recommendations section of the report. Our audit objectives, scope, and
methodology are discussed in Appendix I.




                                     -3-

                    FINDINGS AND RECOMMENDATIONS

          COMPLIANCE WITH ESSENTIAL GRANT REQUIREMENTS

      In performing our audit, we found that Wilmington requested
      and received $2,243,238 in grant funds and provided a local
      match of $748,000 in support of the grant funded project. 3 We
      also found that Wilmington changed the scope of its grant-
      funded project without obtaining approval from COPS, did not
      have adequate support for grant-related expenditures, and did
      not properly record the equipment purchased with grant funds or
      conduct an inventory. In addition, we found that Wilmington did
      not file accurate and timely financial and progress reports, have
      approved budget management policies and procedures, or
      address internal control weaknesses identified in its Single Audit
      Reports.

Project Background

       In its application, Wilmington requested the COPS grant to achieve
interoperability with the State of Delaware’s existing radio system by
replacing its system with radio equipment compatible with the State of
Delaware’s system. Based on our review of Wilmington’s supporting
documentation, Wilmington based its request on a proposed standalone
project to upgrade Wilmington’s analog system with the most current analog
technology and radios that were compatible with the State of Delaware’s
digital system.

      However, rather than implementing the proposed project that was
approved and funded by the COPS grant, we found that Wilmington used
grant funds to participate in a communications expansion project being
implemented by the State of Delaware. Specifically, in September 2004, the
State of Delaware began its Emergency Communications System expansion
project, a $51.2 million project to provide the state with improved
emergency communications coverage throughout the state and to increase
network capacity. Wilmington provided its grant funds to the State of
Delaware for a portion of the state’s project – Wilmington’s share of the
project included the replacement of Wilmington’s existing analog radio
system with a digital system integrated directly into the state’s new system.



      3
        Although Wilmington was required to match $747,746, Wilmington actually matched
$748,000.



                                         -4-

      As a result of this change, Wilmington became compatible with the
State of Delaware’s digital system; however, we found that Wilmington did
not notify COPS of the changes it made to its grant-funded program. We
also found that Wilmington could not establish exactly what the COPS grant-
funding was used for, but instead found that it reimbursed the State of
Delaware for costs associated with its project. These findings are discussed
in greater detail below.

Grant Expenditures

      We reviewed Wilmington’s grant-related expenditures to ensure that
costs charged to the grant were allowable and adequately supported. Based
on grant account records, Wilmington charged 15 expenditures, totaling
$2,991,238, to the grant-funded project. Specifically, Wilmington made
three payments of $775,805, totaling $2,327,415, to the State of Delaware
for portions of the state’s $51,200,000 Emergency Communications System
expansion project. Additionally, charges were made for six contract change
orders, totaling $206,814; three payments were made for portable and
mobile radio equipment purchased through the State of Delaware, totaling
$454,610; and a single payment was made for an electrical study, totaling
$2,400.

       Competitive Contract Award not Supported

      As set forth in the 28 C.F.R § 66.36, procurement transactions are
required to provide full and open competition and grantees must maintain
records sufficient to detail contractor selection and the basis for the contract
price. Although the scope of this audit did not include a review of the
procurement processes used by the State of Delaware, which provided
contract management for the grant-funded project, Wilmington was required
to maintain documentation to support its compliance with federal
procurement regulations.4

      To evaluate Wilmington’s compliance with procurement regulations, we
reviewed documentation Wilmington submitted to support the project,
including the State of Delaware’s Emergency Communications System
expansion project and Consolidated Communications Hardware and Software
Purchasing contracts, a January 2005 Statement of Work, and a March 2005
Memorandum of Understanding with the state noting that Wilmington would

       4
         Based on a Memorandum of Understanding (MOU), the State of Delaware provided
contract management services for the City’s portion of the project and forwarded all invoices
from the contractor to Wilmington after ensuring that the amounts invoiced to Wilmington
included agreed upon costs.



                                             -5-

provide funding for a portion of the project. However, these documents did
not substantiate that the contracts utilized for the grant-funded program
were awarded competitively. We requested additional contract
documentation that would substantiate that procurement regulations were
met, but Wilmington did not provide documentation to support the contract
award during our audit.

      As result, we could not determine whether the contracts were
competitively awarded in compliance with federal procurement regulations.5
The lack of documentation was significant because Wilmington, and not the
State of Delaware, was bound by the federal procurement regulations in its
use of grant funds for the project, and this contract comprised most of the
grant project costs.

       Contract Equipment not Properly Supported

      We also determined that Wilmington was unable to document its
receipt of equipment associated with the project. To support its receipt of
equipment, Wilmington provided a copy of the state’s November 2005
staging list obtained from its contractor. Wilmington identified 115 line
items as equipment installed at its communications sites from this list, and
noted each as funded by the grant program. We compared these line items
to the equipment list established in the statement of work for the project
and determined that only 78 of the 115 items, totaling $129,800, could be
matched to the statement of work equipment totaling $1,443,393.
Wilmington could not provide us with a formal listing of the equipment it
received following the completion of the contract.

       Without adequate documentation supporting the equipment received
for the project, we were not able to determine if the project costs charged to
the grant were directly allocable to Wilmington’s share of the expansion
project. We determined that Wilmington was not able to support the
contract expenditures because it relied on the State of Delaware to ensure
that the contractor fulfilled the requirements of the project. As a result, the
state maintained all project documents until Wilmington requested support
for its share of the expansion project in response to our audit, and even
when documentation was provided to us, we found the documentation to be
inadequate.




       5
          Based on the available documents, the consolidated contract and related prices were
derived from the expansion contract to allow State of Delaware first responders and other
agencies to purchase equipment for use on the state’s system.


                                            -6-

       Electrical Study

       In addition to the other project expenditures, Wilmington charged a
$2,400 electrical study to the grant. Although the electrical study was not
approved in the budget, we reviewed Wilmington’s method for selecting the
electrical study vendor to determine if the cost was reasonable. As set forth
in the 28 C.F.R § 66.36, grantees are required to obtain price quotations
from an adequate number of qualified sources for purchases valued at
$100,000 or less and to maintain documents to support the procurement
method. After reviewing the invoice and supporting documents provided,
which included only one vendor quote, we determined Wilmington could not
demonstrate that it complied with federal regulations. We also determined
that Wilmington did not comply with its own Division of Procurement and
Records Procedures Manual, which authorizes departments to make
purchases valued between $75 and $5,000 from a list of approved vendors,
because the supporting documents provided by Wilmington did not include
or reference an approved vendor list. As a result, we were unable to
determine if the electrical study cost was reasonable.

      As a result of the contract competition, equipment, and electrical study
issues discussed above, we concluded that Wilmington could not document
its compliance with federal procurement regulations and could not
demonstrate what was received through its participation in the state’s
communications project. We therefore question the entire program amount
of $2,990,985 as unsupported.

Accountable Property

      As set forth in the Uniform Administrative Requirements for Grants and
Cooperative Agreements to State and Local Governments, 28 C.F.R. §
66.32, grantees are required to maintain detailed property records, conduct
a physical inventory of property at least once every 2 years, and reconcile
the inventory with its property records.6

      As discussed previously, Wilmington relied on the State of Delaware to
manage the grant-funded project. As a result, Wilmington officials were not
able to provide property records for the equipment purchased with grant
funds. An equipment list from November 2005 was the only documentation
provided by Wilmington to support its receipt of the expansion project
equipment, despite the grant-funded equipment being purchased between

       6
           Property records must include: a property description, serial number or other
identification number, title information, the source of property, acquisition date, cost, the
percentage of federal participation in the cost of property, location, use and condition of the
property, and ultimate date of disposal and sale price.


                                              -7-

November 2005 and September 2007. Additionally, we determined that this
list did not reconcile to the project’s statement of work or include radio
equipment obtained by Wilmington. According to a Wilmington Finance
Department official, entries were made in the accounting system to record
grant-funded equipment. However, during our review, we did not find such
documentation present in Wilmington’s records.

      Additionally, we determined that Wilmington’s last physical inventory
was conducted in December 2005. Based on our review, the inventory
report from 2005 did not include any grant-funded equipment and did not
include all the property information required to meet federal regulations
governing grant-funded equipment.

      During our audit, Wilmington provided its Fixed Assets Policy and
Procedures manual to support its property management procedures. We
determined that this manual requires property records to be reconciled on
an annual basis. However, we found that this policy was not enforced and,
as a result, Wilmington did not comply with the federal requirement to
maintain detailed property records that were reconciled to a physical
inventory at least once every 2 years.

Budget Management and Control

      As previously discussed, COPS approved Wilmington’s $2,990,985
project budget, including Wilmington’s required cash match of $747,746, to
upgrade its communications system and become compatible with the State
of Delaware’s system by upgrading its own communications system. The
approved budget designated $2,985,985 for equipment and $5,000 for
travel costs for the grant-funded project.

      In reviewing the expenditures reimbursed with grant-program funds,
we found that Wilmington categorized all of the grant-program’s funds used
to reimburse the State of Delaware as equipment purchases. Because
agencies can redirect less than ten percent of grant funds between budget
categories without prior approval from the granting agency, we found that
Wilmington’s expenditures remained within the approved grant budget
category totals.7 However, Wilmington’s categorization of the expenditures
as equipment could not be verified and as a result, we could not verify that
Wilmington spent the grant funds in accordance with the approved budget.


       7
          Based on the accounting records and supporting documents, Wilmington did not use
the grant to fund travel. The budgeted travel funds, $5,000, totaling less than 10 percent of
the total award, were re-allocated to the equipment category.



                                            -8-

      We also found that Wilmington altered the purpose of its approved
project without obtaining approval from COPS. Rather than using the grant
funds to upgrade its own communications system, Wilmington utilized its
grant-program funds to participate in the State of Delaware’s Emergency
Communications System expansion project contract. We considered this to
be a significant change in scope. As set forth in the Uniform Administrative
Requirements for Grants and Cooperative Agreements to State and Local
Governments, 28 C.F.R. § 66.30, grantees must obtain prior approval from
the awarding agency before revisions are made to the scope or objectives of
the project, regardless of whether there is an associated budget revision.

       In addition, we found that Wilmington lacked established policies and
procedures designed to ensure grant funds were used according to the terms
and conditions of the grant. To support its current grant management
policies and procedures, Wilmington provided its draft Grants Manual dated
July 2010. Because the manual was not formally approved, we determined
that Wilmington did not have policies and procedures in place to ensure that
it would meet the terms and conditions of the COPS grant-program funding.
Furthermore, the draft policy did not provide specific guidance regarding
project changes that would require prior written approval. An approved
manual was not provided for our review during the audit.

     We question the entire grant amount of $2,990,985 as unallowable
because Wilmington changed the scope of its project without prior written
approval from COPS.8

Reporting

      Financial Status Reports (FSRs) and progress reports are the principal
method COPS uses to monitor the performance of its grants.9 FSRs
summarize the use of federal funding for a grant program, showing the
funds expended, planned to be expended, and remaining balances for each
calendar quarter. Progress reports summarize grant activity for a specified
period of time, including equipment and technology purchased. For our
audit, we reviewed the FSRs and progress reports submitted by Wilmington
for both factual accuracy and timely submission. As discussed below, we



       8
         The Interoperable Communications Technology grant applications were awarded
competitively based on application details and budget.
       9
         As of October 2009, FSRs are Federal Financial Reports (FFRs). Because the reports
submitted by Wilmington for this grant program occurred prior to October 2009, we refer to
these reports as FSRs throughout this report.



                                           -9-

determined that Wilmington did not file accurate or timely FSRs and
progress reports.

Financial Status Reports

      Accuracy

       We reviewed 15 quarterly FSRs Wilmington submitted between
November 2004 and June 2008 for accuracy by comparing the reported
outlays to accounting system data. We found that the financial information
included within the submitted FSRs did not match the accounting system
data. Specifically, we found that Wilmington’s reported share of outlays
were underreported. We found that this occurred because Wilmington
recorded the federal and recipient shares for expenditures in two separate
accounts, one for the federal share and another for Wilmington’s local
match, but the preparer used only the federal share account to calculate
total outlays. Additionally, the local match was calculated using an incorrect
percentage, 10 percent instead of the actual 25 percent match requirement.
The official responsible for the financial reporting agreed that both accounts
were not used to prepare the reports and that he incorrectly believed the
match was 10 percent.

     Additionally, Wilmington reported a July 2006 payment, totaling
$775,805, in an FSR before the transaction was recorded in the grant
program accounts, and reported only $5,822 of the final $28,408 in grant
expenditures in another report.

       Based on our review of the draft City of Wilmington Grants Manual
dated July 2010, the manual did not provide specific guidance for completing
the financial reports accurately. Specifically, the manual did not address
calculating the total outlays based on the federal and recipient share account
records. According to the official, the draft manual was revised to ensure
reports are completed accurately, however, a final, approved manual was
not provided for our review during the audit.

      Timeliness

      FSR reports are to be submitted within 45 days of the end of each
quarter. We reviewed the FSRs submitted by Wilmington for timeliness and
found that 10 of the 15 reports were submitted late. On average, these
reports were submitted 46 days after the deadline, ranging 11 to 171 days
beyond the due date.




                                    -10-
       In addition to our testing of Wilmington’s procedures for filing financial
reports, we found that in 2008, the Office of Justice Programs (OJP)
conducted a financial monitoring and assistance visit, which reviewed five
federal grants awarded to Wilmington, including the grant we audited, grant
number 2004-IN-WX-0007. The OJP report included financial reporting
findings, which we determined were relevant to our audit. Specifically,
Wilmington’s FSRs did not reconcile to the cumulative expenditures recorded
in its accounting system and the reports were not submitted timely for the
2004-IN-WX-0007 grant.

      We found that it did not appear that Wilmington took steps necessary
to address the OJP Report’s findings. Specifically, Wilmington, in its
response to OJP’s findings, stated that it had established e-mail reminders to
monitor the due dates for timely filing of its reports. During our audit, we
observed that Wilmington was currently using the reminders for other grant
awards. We determined, however, that the implementation of the reminders
without specific procedures for submitting reports was not sufficient to
ensure reports were filed on time. Based on our review, Wilmington’s draft
Grants Manual did not have procedures for filing timely reports or include
report due dates.

Progress Reports

      According to COPS, Wilmington was required to submit one annual
progress report for calendar year 2007 and a final progress report at the end
of the grant award. We reviewed these reports for accuracy and timeliness.
The 2007 annual report was due in mid-February 2008 and the final report
was due 90 days after the end of the grant award period. After reviewing
the reports, we determined that the 2007 report was submitted
approximately 108 days late, in June 2008, but we also found that the final
report was submitted on time.

      The two progress reports had five questions that required grantees to
respond by selecting “yes” or “no” answers. Of the five questions, we
determined that two of the questions were the most relevant to our audit.
These questions, to which Wilmington responded “yes” for both reports,
were:

         	 Has your agency met all the grant objectives and implemented
            the programmatically-approved activities scheduled to be
            achieved as of the reporting period?”

         	 “Has your agency purchased all equipment…and other cost items
            in your approved project budget?”


                                      -11-
      We determined that these reports were not accurate because the
grant-funded project scope changed during the grant award period without
prior written approval, and Wilmington could not support its receipt of grant
funded equipment.

Drawdowns

      We reviewed the process that Wilmington followed to request grant
funding. Based on the grant’s payment history, Wilmington received
$2,243,238 through three separate requests, as shown below.10

                              Drawdowns for 

                          Grant 2004-IN-WX-0007 

                  Date of     Drawdown        Amount of
                Drawdown       Number         Drawdown
                9/28/2006         1               $1,516,163
                9/27/2007         2                 $705,000
                 7/1/2008         3                  $22,075
                   Total                        $ 2,243,238
            Source: Office of Justice Programs (OJP)

      We compared these drawdown dates to the expenditures recorded in
the grant account and determined that Wilmington requested grant funding
on a reimbursement basis. These payments were requested in September
2006, September 2007, and July 2008, all before the end of the grant award
period on August 31, 2008. Based on our review of the accounting records,
we determined that the receipt of grant funding was recorded in the
accounting system.

Internal Control Environment

      Our audit approach included an assessment of Wilmington’s controls to
ensure compliance with laws, regulations, and the grant’s terms and
conditions. To accomplish this objective, we gained an understanding of
Wilmington’s financial management system as it was used to record grant
transactions; reviewed the fiscal year 2004 to 2009 Single Audit Reports;
interviewed officials regarding their grant administration practices; and
assessed property management, procurement procedures, and a draft grant
administration manual.


       10
         Wilmington claimed $2,243,238.28 in federal funding, or $0.72 less than the
$2,243,239.


                                             -12-
Financial Management System

      The Code of Federal Regulations requires grantees and sub-recipients
to maintain records to adequately identify the source and application of
grant funds provided for financially supported activities. These records must
contain information pertaining to grant awards and authorizations,
obligations, unobligated balances, assets, liabilities, outlays or expenditures,
and income.

      We found that Wilmington maintained these records in two separate
accounts, one for federal funds and another for Wilmington’s local matching
share. We determined that the two accounts tracked obligations, outlays,
and expenditures allocated to the grant project. We also determined that
the accounting system was used to record the receipt of federal funds.

Single Audits

      We reviewed Wilmington’s Single Audit Reports for fiscal years 2004 to
2009 and identified three internal control findings related to Wilmington’s
administration of the grant we audited. In our audit, we found that the
related internal control weaknesses have not been adequately resolved and
are consistent with the basis for our findings for the unsupported grant
expenditures. Specifically, we continue to have concerns regarding
Wilmington’s property management, policies and procedures for
procurement and the use of federal grants, and recordkeeping.

      Property Management

       The FY 2005 Single Audit found that Wilmington did not maintain
records for property and equipment for a previous COPS technology grant
and recommended that records for equipment purchased with federal funds
be maintained and reconciled with a physical inventory at least every 2
years. During this audit, we determined that Wilmington did not maintain
property records and its last inventory was completed in December 2005.
Furthermore, equipment from the grant we audited was not included in this
inventory. Additionally, we determined that Wilmington did not enforce the
policies in its Fixed Assets Policy and Procedures Manual that requires
property records to be maintained for all equipment and an annual inventory
be conducted.

      Procurement Policies and Procedures for Federal Grants

      The FY 2004 Single Audit found that Wilmington “…did not have a
written procurement policy … for expending federal funds.” To support its


                                     -13-
policies and procedures, Wilmington provided its Division of Procurement
and Records Procedures manual dated April 2004. Based on our review, the
manual did not include guidance for cooperative purchasing with the State of
Delaware, evaluating proposals and bids, selecting contractors, and
awarding contracts for federally-funded procurements.

      As discussed, Wilmington could not support that the Delaware
Emergency Communications System project and Consolidated
Communications Hardware and Software Purchasing contracts were awarded
competitively by the State of Delaware and could not support its receipt of
project-related equipment. We also reviewed Wilmington’s draft Grants
Manual for relevant procurement policies and procedures, but the manual
did not include specific policies for expending federal funds.

      Additionally, we determined that Wilmington could not support its
compliance with either the federal regulations or its own procedures in its
selection of the electrical study vendor.

      Recordkeeping

       The FY 2005 Single Audit found that Wilmington “…could not provide
supporting documentation for selected test work … [and] recommended that
the city adopt a record retention policy.” As discussed, our audit found that
Wilmington could not provide documentation supporting its actual project
scope or grant expenditures. Although the draft Wilmington Grants Manual
(July 2010) states that each grant has its own record retention requirement,
usually 3 years, it did not include specific procedures to ensure that records
are properly retained.

Matching Costs

      The FY 2004 Interoperable Communications Technology Program grant
required a local match of at least 25 percent. As required by the federal
regulations, grantees are required to maintain records which document the
amount and source of local matching funds from non federal sources.
Wilmington’s approved grant budget included local matching costs of
$747,746. After reviewing the recipient share account, we determined that
Wilmington met the match requirement using its non-federal funds to
contribute at least 25 percent of the expenditures. Wilmington actually
exceeded the local match by contributing $748,000. Based on Wilmington’s
FY 2006 Budget and the recipient share account record, we determined that
the local match was funded by a local bond.




                                    -14-
Program Performance and Accomplishments

       Wilmington was awarded the COPS Interoperable Communications
Technology Program grant to replace its antiquated analog radio system with
a new analog system that would integrate with the State of Delaware’s
digital radio system. As discussed previously, we found that the project
implemented by Wilmington using grant funds differed significantly from the
plan established in Wilmington’s grant application, in that it participated in
the development of a digital system with the state, and Wilmington did not
receive approval for the significant change in its methodology to integrate
with the state’s system. However, during the course of our audit, we found
that the project implemented by Wilmington did meet the overall objective
of the grant, albeit through its unapproved means, as well as the COPS
Interoperable Communications Technology Program, in that Wilmington is
now fully integrated into the State of Delaware’s emergency communications
system. While we could not establish what the costs associated with the
final results of Wilmington’s interoperability with the state’s system were for
directly, or whether Wilmington paid too much for its fair share of the
system it is now a part, we found that Wilmington’s implementation of the
grant program did fulfill its objective of becoming interoperable with the
state.

      While we question the expenditures associated with the grant-funded
program because we could not track the costs and because Wilmington did
not implement the program it established through its grant application, we
do find that Wilmington did meet the objective of the grant.

Conclusions

       We determined that Wilmington requested and received $2,243,238 in
grant funds for claimed expenditures and provided $748,000 in local
matching funds for the grant-funded program. However, we found that the
expenditures made with program funds included costs that were unallowable
and unsupported. Specifically, we found that Wilmington: (1) changed the
scope of its grant-funded project without prior written approval from COPS,
(2) did not have approved budget management policies and procedures in
place to ensure that grant objectives were met, (3) could not support its
compliance with the federal regulations requiring competitive procurement
or receipt of grant-funded equipment, (4) did not record equipment in a
property management system or conduct an inventory at least once every 2
years, (5) did not complete accurate and timely financial and progress
reports, and (6) did not ensure that internal control weaknesses identified in
its Single Audit Reports were adequately resolved. As a result of these
findings, we question all of the funds expended for the program. While we


                                     -15-
found that Wilmington did not ensure that it implemented the project
outlined and approved in its grant application, which resulted in the
questioned costs described above, we also found that the result of the
expenditures associated with the grant-funded program did result in
Wilmington’s ability to establish interoperable communications with the State
of Delaware.

Recommendations

   We recommend that COPS:

1. Remedy the $2,990,985 in expenditures that were unsupported as a
   result of deficiencies related to contract competition, equipment, and an
   electrical study.

2. Remedy the $2,990,985 in unallowable expenditures that were not
   approved by COPS as a result of the project scope change.

3. Ensure Wilmington implement and adhere to budget management policies
   and procedures.

4. Ensure grant-funded equipment is properly recorded and reconciled to a
   physical inventory at least once every 2 years in accordance with the
   federal regulations.

5. Ensure that Wilmington implement and adhere to policies and procedures
   for completing accurate and timely financial and progress reports.

6. Ensure that Wilmington implements and adheres to internal control
   policies and procedures that address its Single Audit Report findings.




                                    -16-
                                                                                  APPENDIX I 



                      OBJECTIVES, SCOPE, AND METHODOLOGY

      The purpose of this audit was to determine whether reimbursements
claimed for costs under the grant were allowable, supported, and in
accordance with applicable laws, regulations, guidelines, and the terms and
conditions of the grant, and to determine program performance and
accomplishments. The objective of our audit was to review Wilmington’s
performance in the following areas: (1) grant expenditures, (2) accountable
property, (3) budget management and control, (4) reporting,
(5) drawdowns, (6) internal control environment, (7) matching costs, and
(8) program performance and accomplishments. We determined that
program income, indirect costs, and monitoring of contractors and
subgrantees were not applicable to this grant.

      We conducted this performance audit in accordance with generally
accepted government auditing standards. Those standards require that
we plan and perform the audit to obtain sufficient, appropriate evidence
to provide a reasonable basis for our findings and conclusions based on
our audit objectives. We believe that the evidence obtained provides a
reasonable basis for our findings and conclusions based on our audit
objectives. Our audit concentrated on, but was not limited to, the award
of the grant on September 1, 2004, through grant close-out in March
2009. This was an audit of the Interoperable Communications Technology
Program grant 2004-IN-WX-0007.11 Wilmington had a total of
$2,243,238 in drawdowns through August 2008.

      We tested compliance with what we consider to be the most important
conditions of the grant. Unless otherwise stated in our report, the criteria
we audit against are contained in Title 28, Part 66, Code of Federal
Regulations, Uniform Administrative Requirements for Grants and the award
documents.

      In conducting our audit, we reviewed all claimed grant-related
expenditures and drawdowns. In addition, we reviewed the timeliness and
accuracy of FSRs and progress reports, and evaluated performance to grant
objectives. However, we did not test the reliability of Wilmington’s financial
management system as a whole.




         11
              The audit scope was specific to the City of Wilmington and its administration of the
grant.


                                                -17-
                                                                             APPENDIX II 



                 SCHEDULE OF DOLLAR-RELATED FINDINGS


QUESTIONED COSTS:                                                  AMOUNT                PAGE

Unallowable expenditures                                               2,990,985               9

Unsupported expenditures                                               2,990,985               7

TOTAL GROSS QUESTIONED COSTS                                         $5,981,970

    LESS DUPLICATION12                                             ($2,990,986)



NET QUESTIONED COSTS                                                $2,990,984

Questioned Costs are expenditures that do not comply with legal, regulatory, or
contractual requirements, or are not supported by adequate documentation at the time of
the audit, or are unnecessary or unreasonable. Questioned costs may be remedied by
offset, waiver, recovery of funds, or the provision of supporting documentation.




       12
         These costs relate to identical expenditures—though questioned for different
reasons—and as a result, that portion of questioned costs is duplicated. We reduced the
amount of costs questioned by the amount of this duplication, as well as by an insignificant
amount that was de-obligated.


                                            -18-
                                                                                                        APPENDIX III


CITY OF WILMINGTON’S RESPONSE TO THE DRAFT AUDIT REPORT


            e \l'''   0"

   !M~
   :.   .                  (1
                                City of Wilmington
                                James M. Baker, Mayor
                                                                                               Wilmington Police Department
                                                                                  William T. Mclaughlin Public Safety 8uilding
    •                      <                                                                             300 N. Walnut Street
                                                                                                  Wilmington. DE 19801 ·3936
        a" l ~W"¥-~
                                                                                                     www.WilmingtonDE .gov




                       March 19,2012

                       Thomas O. Puerzer
                       Regional Audit Manager
                       Office of the Inspector General
                       Philadelphia Regional Audit Office
                       701 Market Street, Suite 201
                       Philadelphia, Pennsylvania 19106

                       Dear Mr. Puerzer:

                       I am in receipt of your letter dated March 9, 2012, as well as the draft audit report
                       concerning the Office of Community Oriented Policing Services (COPS) grant number
                       2004·IN· WX+007. In compliance with your request fo r an official response, my
                       comments are as follows.

                      The Wilmington Department of Police applied for the Interoperable Communications
                      Technology Program to achieve interoperability with the State of Delaware's digital radio
                      system. This objective was met. The grant required a cash match of $747,746.00 which
                      was also satisfied. I acknowledge the conclusions in the audit report, and appreciate the
                      efforts taken to document the steps the City could take to improve our budget
                      management policies. I will address these findings with the officials in our Office of
                      Management and Budget for rectification.

                      I would like to close by stating that the Wilmington Department of Police has been the
                      recipient of nume rous COPS grants in the past and present. There has never been any
                      intentional misuse of funds, and our current grants are in good standing.

                      Sincerely,


                       ~f . ~
                      Mlo",,1 1. S,o,,,b,
                      Chief of Police




                      MJS/fsr




                                                            - 19- 

CC:   U.S. Department of Justice
      Community Oriented Policing Services

      William Montgomery
      Chief ofStaff

      Eugene Bradley
      City Auditor

      Suzanne Oliver
      Director of Integrated Tecimology

      Laura Papas
      Finance Director

      Michael Witkowski
      Communications Manager

      File




                                     -20-
                                                                                       APPENDIX IV 



OFFICE OF COMMUNITY ORIENTED POLICING SERVICES

      RESPONSE TO THE DRAFT AUDIT REPORT 




              u.s. DEPARTMENT OF J USTI CE
              OFFI CE OF COMMUN ITY ORIENTED POLI C ING SERVICES

              Grant Operations Directorate/ Audit Liaison Division
                                                                                    COPS
              145 N Street, N .E., WashingtOn, DC 20530




                                      MEMORANDUM



 To:           Thomas O. Puerzer
               Philadelphia Regional Audit Manager
               Office of the Inspector General

 From:         Melonie V. Shine
               Management Analyst

 Date:         April 12, 2012

 Subject:      Response to the Draft Audit Report issued on March 9,2012 for the City of
               Wilmington, Delaware

 This memorandum is in response to your March 9, 2012, draft audit re{Xlrt on the Interoperable
 Communications Technology Graut #2004INWX0007, awarded to the City of Wilmington,
 Delaware (\Vilmington). For ease ofreview, each audit recommendation is stated in bold and
 tulderlined, followed by a response from COPS concerning the recommendation.

 Recommendation 1- Remedv the $2.990.985 in expenditures that were unsupported as a
 result of deficiencies related to contract competition. equipment. and an electrical ~tudy.

        COPS concurs that grantees should provide documentation which supports the
 expendihlres that were made tulder the grant.

 Discussion and Planned Action

        COPS will request an explanation and documentation from Wilmington concerning the
 expenditures that were questioned as unsupported. COPS will detennine the appropriate action
 concerning this recommendation after reviewing the response from Wilmington

 Request

      Based on the discussion and plarmed action, COPS requests resolution of
 Recommendation 1.




 ADVANC I NG PUBLIC SAFETY THROUGH COMMUNITY POLICI NG
                            I<




                                            - 21- 

1110mas O. Puerzer
Philaddphia Regional .'\udit l\"[anager, OIG
April 12, 2012
Page 2


Recomml'ndation 2 ~ Re nll'd,' the S2,9')(),9HS in unallowable ex penditnrt'll th,tt     W I'n'   not
a pprt",ed hy C Ol'S a s a t'l's ult "r th e pm jt'ct scope change.

        COPS concurs thai gnUitees should obtain approval prior to making changes to the scope
of the grant project which was awarded based on the submitted grant application and budget.

J)iscussion a nd Planned Adion

        COPS will request lUI exp1:U1ation and documentation from Wilmington regardi ng
changes that were made to the projccl scope without prior approval. After reviewing th e
resJXlnse from Wilmington, COPS will detenlline the appropriate action concenting this
recommendati on.

Request

     Based on the     di~cu~sion   and planned action, COPS requests resol uti on of
Recommcndation 2.

R ('co nlln('ndat ion 3 ~ En su r(' that Wilmingtoll implelll(,lIts a nd adh('r('s to budget
manage m ent policil's and procedures.

       COPS concurs thm grantees should implemem JXl lieies Wid procedures to ellSure
adequate budgclmanagcment.

J)ist'ussion a nd Planned Adion

        COPS will request lUI explwlati on and documentation to demonstrate that Wi lm ingtOll
has implementcd and adheres to JXlliei.:s and procedures to ensure proper budget management.
COPS will detennine the appropriate action concentin g Ihis recommendation after reviewing the
resJXlnse from Wilmington.

Request

     Based on Ihe discussion and planned aelion, COPS req uests resolution of
Recommendation 3.

RecomnU'ndatioll 4 ~ Ensurl' gmnt-fullded ('(Juipment is pl'opnh' I't'conled and \'ec onciled
to a phYSical inl'tntor" at least onet ('n:n' 2 na rs in accordance with the federal
regulatiolls.

       COPS concurs Ihal granlees should properl y record grant~funded equipment an d
reconcile it 10 a ph ys ical inventory at lea~t once every 2 yeal1).




                                               -22-
1110mas O. Puerzer
Philaddphia Regional .'\udil1\"[unagcr, OIG
April 12, 2012
Page 3


J)iscu ssion li nd Planned Act ion

       COPS will request an expllUlation and documentation from Wilmington to confinn that
equipment purchased with grant funds is properly recorded and reconciled to a physical
inventory. COPS will detennine the appropriate action conceming this recommendation after
reviewing the response from Wilmington.

Rcqlltst

     Based on the discussion and planned action, COPS requcsts resolulion of
Recommendation 4.

RtCQnllllendation 5 - E nsurt' that Wilmingtoll impitnwnts and adhtrt's to policies a nd
proct'(l ul"t's for ('.omplcting accll rate and timelv financial [lnd progress I"<'polis.

       COPS concurs thai grantees are expected to submit accurat.: and timd y financial and
progress reports.

Discussion a nd PlmUled Action

       COPS will request an explanation and documentation which demonstrates thaI
Wilmington implemented (Uld adheres to policies and procedures to ensure that fin.Ulcial and
progrcss reports arc submitted with accuratc infommtiol1 .md on time. COPS will detennine the
appropriate action concerning this recommendation after rev iewing the response from
Wilmington.

H.equest

     Based on the discussion and plmmed action, COPS requests resolution of
Recommenda tion 5.

Recommendatioll 6 - Ensure that Wilmington impicments allli adheres to illte nlal control
polil"ies :lIId JlnM:edures 1I1"It add Tess its Single Audit H.eJl1!11 findings.

       COPS concurs that grlUitees should implement ruld adhere to policies ruld procedures
which ensure adequate intemal controls.

Discussion a nd Pl;"uUled Action

        COPS will ri::quest an explrulation and documentation to contiml that Wilmington
implemented and adhcK'S to intcmal control policies and procedures Ihat addre~s its Single Audit
Report findings. COl'S will deli::mlini:: the appropriate acti()Il conci::ming this recommendation
after reviewillg the response from Wilmington.




                                                -23-
1110mas O. Puerzer
Philaddphia Regional .'\udit l\"[anagcr, OIG
April 12, 2012
Page 4


Requ est

     Based on the discussion and plmmed action, COPS requests resolution of
Recommendation 6.

        COPS considers Recommendations I through 6 resolved, based on the discussion and
planllcd actions shown above. In addition, COPS rcqucsts writtcn acceptance of the
detenllination from your ollice.

        COPS wo uld like to thank you for the opport unit y to review and res pond to the draft
audit report. If you have :Uly quest ions, please contact me at 202-616-8124 or via e-mail.


ee:    Martin L. Ward (copy provided electronically)
       Philadelphia Regional Audit Office, OIG

       Lo uise t....1. Ouhamd. Ph. D. (copy provided electronically)
       Justice Management Di vis ion

       Mary T I\'iyers (copy provided electronicall y)
       Juslic<:: Management Di vision

       Marcia O. Samuels-Campbell (copy provided e\cctronically)
       Audit Uaison Division

       Nanc y Daniels (copy provided electronically)
       Audit Liaison Divi sion

       James 1\'1. Baker
       City of Wilm ington

       Michael J. Szczerba
       City of Wilmington

       Grant File: inlerop #2004INWX0007

       Audit File


ORI: 0£00206




                                               -24-
                                                                 APPENDIX V


 OFFICE OF THE INSPECTOR GENERAL ANALYSIS AND SUMMARY OF
           ACTIONS NECESSARY TO CLOSE THE REPORT

       The OIG provided a draft of this audit report to the City of Wilmington
and the Office of Community Oriented Policing Services (COPS) for review
and comment. Their responses are included as Appendix III and IV of this
final report. The following provides the OIG analysis of the responses and
summary of actions necessary to close the report.

Recommendation Number:

   1. Resolved. COPS concurred with our recommendation to remedy the
      $2,990,985 in expenditures that were unsupported as a result of
      deficiencies related to contract competition, equipment, and an
      electrical study. COPS stated that it will request an explanation and
      documentation from Wilmington concerning the expenditures that
      were questioned as unsupported. In its response, Wilmington
      acknowledged the finding.

      This recommendation can be closed when we receive documentation
      that COPS has remedied these questioned costs.

   2. Resolved. COPS concurred with our recommendation to remedy the
      $2,990,985 in unallowable expenditures that were not approved by
      COPS as a result of the project scope change. COPS stated that it will
      request an explanation and documentation from Wilmington regarding
      the changes that were made to the project scope without prior written
      approval. In its response, Wilmington acknowledged the finding.

      This recommendation can be closed when we receive documentation
      that COPS has remedied these questioned costs.

   3. Resolved. COPS concurred with our recommendation to ensure
      Wilmington implement and adhere to budget management policies and
      procedures. COPS stated that it will request an explanation and
      documentation to demonstrate that Wilmington has implemented and
      adheres to policies and procedures to ensure proper budget
      management. In its response, Wilmington acknowledged the finding.

      This recommendation can be closed when we receive documentation
      from COPS of Wilmington’s implementation and adherence to budget
      management policies and procedures that comply with federal
      regulations.


                                    - 25- 

4. Resolved. COPS concurred with our recommendation to ensure
   grant-funded equipment is properly recorded and reconciled to a
   physical inventory at least once every 2 years in accordance with the
   federal regulations. COPS stated it will request an explanation and
   documentation from Wilmington to confirm that equipment purchased
   with grant funds is properly recorded and reconciled to a physical
   inventory. In its response, Wilmington acknowledged the finding.

  This recommendation can be closed when we receive documentation
  from COPS demonstrating that Wilmington has properly recorded
  equipment purchased with grant funds and implemented property
  management policies and procedures that comply with federal
  regulations.

5. Resolved. COPS concurred with our recommendation to ensure that
   Wilmington implement and adhere to policies and procedures for
   completing accurate and timely financial and progress reports. COPS
   stated that it will request an explanation and documentation that
   demonstrates Wilmington implemented and adheres to policies and
   procedures to ensure that financial and progress reports are submitted
   with accurate information and on time. In its response, Wilmington
   acknowledged the finding.

  This recommendation can be closed when we receive documentation
  from COPS demonstrating Wilmington’s implementation and adherence
  to financial and progress reporting policies and procedures that comply
  with federal regulations.

6. Resolved. COPS concurred with our recommendation to ensure that
   Wilmington implements and adheres to internal control policies and
   procedures that address its Single Audit Report findings. COPS stated
   that it will request an explanation and documentation to confirm that
   Wilmington implemented and adheres to internal control policies and
   procedures that address its Single Audit Report findings. In its
   response, Wilmington acknowledged the finding.

  This recommendation can be closed when we receive documentation
  from COPS demonstrating Wilmington’s implementation and adherence
  to policies procedures for addressing Single Audit Report findings in
  compliance with federal regulations.




                                -26-
